           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         TITLE II DISABILITY
    INSURANCE BENEFITS WITH A
  WORKERS’ COMPENSATION OFFSET


   November 2006   A-04-05-15133




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      November 22, 2006                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Title II Disability Insurance Benefits with a Workers’ Compensation Offset
           (A-04-05-15133)


           OBJECTIVE
           Our objective was to determine the accuracy of payments of Title II Disability Insurance
           (DI) claims with workers’ compensation (WC) offsets.

           BACKGROUND
           The Social Security Administration (SSA) administers the Old-Age, Survivors and
           Disability Insurance (OASDI) program under Title II of the Social Security Act, as
           amended (Act). Section 223 of the Act 1 requires that SSA provide monthly DI benefits
           to individuals who meet specific disability requirements.

           Workers injured on the job may qualify for DI benefits in addition to benefits under
           Federal and State WC programs. In general, injured workers receive compensation for
           lost wages through State WC programs. Each State administers its own WC program.
           State WC agencies generally adjudicate claims and act as the depository for WC
           disability claim records. However, employers may purchase WC insurance from private
           insurance companies, receive it through a State insurance fund, or elect self-insurance.

           When an injured worker qualifies for both State WC and Federal DI benefits, the
           combined benefits could result in workers receiving more in disability payments than
           they earned before they became disabled. To prevent this, Congress enacted the WC
           offset provision under section 224 of the Act, 2 which requires that SSA reduce DI
           benefits by the amount of any other disability benefit paid under any law or plan of the




           1
               42 U.S.C. § 423.
           2
               42 U.S.C. § 424a.
Page 2 - The Commissioner


United States, a State, or a political subdivision. In this instance, SSA reduces the DI
benefit based on an offset calculation set forth in its policy and procedures. 3

Not all State WC benefits result in a reduction of DI benefits. Fourteen States have
reverse offset laws recognized by SSA. 4 Those 14 States reduce WC benefits, and the
injured worker receives the full DI benefit from SSA.

Our previous audits revealed weaknesses in the payment calculations of Title II DI
claims involving WC benefits. The payment errors generally occurred because of
human error in processing the claims. That is, SSA staff

•   did not verify the amount and duration of State WC benefits,
•   misinterpreted State WC benefit data,
•   made data input errors, or
•   miscalculated benefit redeterminations.

In previous reports, which are detailed in Appendix B, we made recommendations to
improve the payment calculation process by increasing front-end reviews, reducing the
backlog of WC claims with pending WC decisions, automating manual processes, and
ensuring WC benefit data are verified.

In June 2004, SSA implemented the Title II Redesign Release 3 (Redesign) to improve
the automated processing of Title II initial claims applications and post-entitlement
actions, both of which involve WC offset claims. The Redesign’s goal was to expand
business automation, reduce manual tasks, improve the quality of the data stored on
the master records, and reduce the number of exceptions to be worked by program
service center (PSC) technicians. The Redesign streamlined the WC process to reduce
manual actions and expanded the Master Beneficiary Record (MBR) 5 to include more
WC information. Although the Redesign automates the WC offset calculation, the
calculation still depends on SSA’s interpretation and input of the State WC benefit data.
Because each State administers its own WC program, the WC benefits data available to
SSA often vary in format and content. The variability in the State WC data can
contribute to SSA’s misinterpretation of the data.



3
 See SSA Program Operations Manual System (POMS), DI 520: Workers’ Compensation/Public
Disability Benefit (WC/PDB) Offset.
4
 These “reverse offset” States are California, Colorado, Florida, Louisiana, Minnesota, Montana, Nevada,
New Jersey, New York, North Dakota, Ohio, Oregon, Washington and Wisconsin. SSA, POMS DI
52001.080(3)(a).
5
  SSA establishes an MBR for each DI claimant. The MBR maintains pertinent information needed to
accurately pay benefits to the claimant and all entitled dependents. The information maintained includes
identification data (name, Social Security number, date of birth, address), earnings history, type and date
of disability, monthly DI benefit amounts, and the reason for terminating or suspending benefit payments.
Thus, any change in a claimant’s or dependent’s situation must be reflected on the MBR to ensure its
integrity and the accuracy of benefit payments.
Page 3 - The Commissioner


SCOPE AND METHODOLOGY
We reviewed a random sample of 250 DI claims from a population of 234,968 DI claims
in which SSA’s records indicated a WC offset began between January 1, 1998 and
December 31, 2004. Because the offset start date is effective when a change in WC
benefits is recorded, our population includes some DI claims with offset beginning
before 1998. From our sample, we determined that 93 percent of the DI claims had a
WC offset that began between January 1, 1998 and December 31, 2004; 7 percent of
the claims had WC offsets that began before the January 1, 1998. To determine the
accuracy of the WC offsets for these 250 cases, we

•   calculated the WC offset based on the proven WC benefits data,

•   compared the total benefits paid to the total benefits owed, and

•   obtained SSA’s review and comments for each error case.

For 18 claims, we determined the payment errors continued after December 31, 2004.
During our audit, we informed SSA of the errors. SSA agreed to correct the offset
calculation and adjust the DI benefits as needed. These errors would likely have
continued had we not identified them or a significant event occurred that would have
caused SSA to review the claims. Therefore, we estimated the number of claims and
the total amount of the payment error that may have continued for 12 months after our
audit period. Further information regarding our scope and methodology as well as our
sampling methodology is in Appendices C and D.

RESULTS OF REVIEW
We commend SSA’s efforts to improve the payment accuracy of DI claims with a WC
offset. We acknowledge the complexity of these claims and believe the recent
Redesign contributed to improvements in the accuracy of WC claims. The percentage
of payments in error identified in this report has declined significantly when compared to
the percentage we reported in our prior WC offset audits. For example, in our
October 2004 report, The Social Security Administration’s Clean-up of Title II Disability
Insurance Cases with a Workers’ Compensation Offset, we identified a 31-percent
payment error rate.

Although we acknowledge an improvement in the payment accuracy of WC offset
claims, some payment errors continue to exist in this workload. Of the 250 randomly
sampled DI claims, 43 (17 percent) had payment errors. Of the 43 claims, 27 had
payment errors directly related to the WC offset calculation, totaling $158,590
(Appendix E). The remaining 16 had DI processing errors that were not related to WC
offset calculation; these claims totaled $71,524 (Appendix F). From our population of DI
claims in which SSA records indicated a WC offset started between January 1, 1998
and December 31, 2004, we estimate that:
Page 4 - The Commissioner


•   approximately 25,377 DI claims totaling about $149.1 million had payment errors
    related to the WC offset, and

•   about 15,038 DI claims totaling approximately $67.2 million had payment errors
    unrelated to the WC offset calculation.

Table 1 details the sampling and estimation results for the 27 payment errors related to
the WC offset.

    Table 1: Summary of Sampling and Estimation Results for WC Related Errors
             Error       Sample – Error Claims   Estimate to Population
            Category     Claims      Dollars      Claims        Dollars
        Underpayments      19         $118,386    17,858     $111,268,016
        Overpayments        8           $40,204    7,519      $37,786,614
                  Totals   27         $158,590    25,377     $149,054,630

Also, 18 of the 43 claims had payment errors that continued after December 2004.
Based on this error rate, we estimate that approximately 16,918 claims had payment
errors totaling about $83.1 million that may have continued through the 12-month period
ended December 2005. The continuing payment errors for the 18 claims are
summarized in Appendix G.

As in past audits, we determined that most of the payment errors resulted from human
error. For example, we noted that SSA personnel did not always verify the amount of
WC payments made to the DI beneficiary by the State or insurance carrier. This
information is essential in calculating the amount to be offset. Additionally, we
continued to note that SSA personnel misinterpreted or incorrectly applied the amount
of WC payments to the offset calculation. Finally, we identified instances in which SSA
personnel calculated the offset amount correctly but made other errors when processing
the claims. Based on the continuing payment error rate and complexity of these claims,
we believe SSA should explore all possible avenues, including additional legislation, to
simplify and automate this process.

DISABILITY INSURANCE CASE PAYMENT ERRORS
Of the 250 randomly selected DI claims with a WC offset, 43 (17 percent) had payment
errors totaling $230,114. Of these 43 claims, 27 had payment errors totaling
$158,590 that were related to the WC offset calculation. The remaining 16 payment
error claims had DI processing errors unrelated to the WC offset calculation. The total
payment error for these 16 claims was $71,524.
Page 5 - The Commissioner


PAYMENT ERRORS RELATED TO THE WC OFFSET

Of the 27 claims with payment errors related to the WC offset, 23 errors resulted from
mistakes in processing the WC offset calculation. The remaining four errors occurred
because SSA staff did not verify WC benefits paid to the SSA DI beneficiary.

Processing Mistakes Related to the WC Offset Calculation

In 23 claims, SSA personnel made mistakes in processing the WC offset calculations
that resulted in payment errors. The payment errors for the 23 claims totaled $140,225:
15 claims resulting in $100,021 in underpayments and 8 claims resulting in $40,204 in
overpayments. Of the 23 payment error claims, 11 had payment errors that continued
past our audit period. For these 11 claims, the monthly payment errors that continued
into January 2005 totaled $4,448 or about $404 per case.

In general, we determined the payment errors occurred because SSA personnel

•   incorrectly applied WC rates when performing the WC calculation,

•   used inaccurate WC payment frequencies to calculate the WC offset, and/or

•   improperly prorated lump sum WC settlements. 6

Table 2 identifies the payment errors directly related to mistakes in processing the WC
offset.




6
 A lump sum settlement represents all the remaining WC payments due the disabled worker. The lump
sum award must be prorated to determine the amount and length of time to offset the beneficiary’s Title II
DI benefits.
Page 6 - The Commissioner


             Table 2: Processing Error Related to the WC Offset Calculation
                                                                 Payment Error Dollars
                                            Payment
            Error Description                Errors         Over-            Under-          Total
                                                         Payments          Payments         Errors
    1 Incorrect WC Data (amount
                                               13        $35,040(6)       $56,012(7)       $91,052
       and frequency) Applied
    2 Lump Sum Settlement
                                                2             --           $8,261(2)        $8,261
       Prorated Incorrectly
    3 Triennial Redetermination
                                                2             --            $925(2)          $925
       Not Performed 7
    4 Beneficiary Not Switched to
                                                2          $3,475            $3,546         $7,021
       Retirement Benefits
    5 Reverse Offset not
                                                1             --            $12,838        $12,838
       Recognized
    6 WC Offset Incorrectly
       Applied to Auxiliary                     1             --            $12,360        $12,360
       Beneficiaries
    7 WC Attorney Fee Applied
                                                1             --             $6,079         $6,079
       Incorrectly
    8 WC Offset Stopped Early                   1          $1,689              --           $1,689
                            TOTALS             23          $40,204         $100,021       $140,225
    Note: The numbers shown in ( ) indicate the number of payment error claims comprising the total
    dollar payment error amount.

SSA overpaid one beneficiary $8,527 because personnel incorrectly applied WC data
received from the insurance carrier. In this case, the DI beneficiary was paid on
two WC claims—one claim through a lump sum payment and the other through weekly
payments. SSA correctly applied the lump sum benefits but did not include the
$244 weekly WC benefits in the offset calculation.

In another example, we identified an underpayment of more than $3,500. The
underpayment occurred because SSA applied a WC offset to the DI benefit when the
beneficiary should have been receiving reduced Retirement Insurance Benefits (RIB). 8
According to the MBR, the beneficiary elected early reduced RIB in April 1996 in place
of DI benefits (subject to a WC offset). However, SSA continued to pay offset DI
benefits, resulting in a large underpayment.

7
  To protect against inflation, SSA is required to redetermine the beneficiary’s average current earnings
for those workers who had a WC/PDB offset. The triennial redetermination should be made when Title II
DI benefits have been offset for 3 consecutive years because of WC payments. A triennial
redetermination can result in increased benefits since the average current earnings—a component of the
offset calculation—are recalculated using a ratio adjusted for inflation.

8
  When a DI beneficiary is age 62 to 64 and their WC offset is ongoing, the beneficiary may elect to
receive RIB. The election may occur when the reduced monthly RIB exceeds the monthly DI benefits
(after WC offset). Once the early RIB is elected, the reduced RIB continues after full retirement age.
Page 7 - The Commissioner


We understand that interpreting the myriad of State WC benefits data may be difficult
for SSA personnel processing a WC claim. Although most States maintain information
regarding the status of WC claims, detailed settlement and benefit payment information
is usually maintained by the employer’s insurance carrier. The insurance carrier’s WC
information is often only available to SSA in paper record, and the format varies by
insurance carrier. Further, obtaining hard copy WC data from a multitude of insurance
carriers can be tedious, and the timely receipt of information depends on the
responsiveness of the insurance carriers.

As stated earlier, the proper interpretation and application of this information are
essential in calculating a correct WC offset. Given the complexity of this process and
the continuing error rate in WC claims, we encourage SSA to explore alternate methods
for obtaining, standardizing and applying State WC information.

Payment Errors Occurred Because SSA Personnel Did Not Always Verify
WC Benefits

In 4 of the 27 payment error claims, the errors occurred because SSA did not verify WC
benefits paid by the State or insurance carrier. The payment errors for these
four claims resulted in $18,365 in underpayments.

Critical components of the WC offset calculation are the amount of WC benefits paid by
the State or insurance carrier and whether they are paid weekly, bi-weekly, or monthly.
If SSA personnel apply incorrect WC data in the offset calculation, a payment error is
likely to occur. The most reliable way of ensuring the accuracy of WC data is to obtain
independent proof of the WC data from the insurance carrier administering the claim.

In March 2006, SSA issued a policy requiring that personnel permanently retain all proof
of State WC benefits or public disability benefits (PDB) in the official claims folder. 9
Prior SSA policy required that SSA staff verify WC benefits but did not specify where the
proof should be maintained. 10 This policy also required that staff processing claims
enter relevant WC information in SSA systems. Although the prior policy did not require
that staff maintain proof of WC benefits, in practice, WC proofs were often maintained in
either the beneficiary’s case folder or the paperless system.

For 109 (43 percent) of the 250 claims reviewed, we did not locate independent proof of
the WC benefits in SSA’s case folder or on the paperless system. For many of these
claims, WC data were recorded on the MBR. 11 Presumably, these data (WC payment
amount and frequency) were obtained from documentation provided by the DI
beneficiary, State or insurance carrier when SSA staff calculated the WC offset. For

9
    POMS, DI SF52001.150 A.
10
     POMS, DI 52001.150.
11
  Our audit did not rely on the electronic WC data. We attempted to obtain independent verification of
the WC benefit data for each case lacking evidence that the data were proven.
Page 8 - The Commissioner


19 (17 percent) of the 109 claims, SSA staff annotated on the MBR that the WC data
used to calculate the offset were not proven. We obtained proof of the WC benefit data
for all but 2 of the 19 claims and determined that 4 had reportable underpayment
errors. 12 SSA representatives reviewed the four claims and agreed that these errors
existed. Table 3 details the four underpayment claims caused by SSA personnel’s use
of unverified WC data.

       Table 3: Incorrect WC Benefit Data Resulted in Under-Payment Errors
                            SSA’s WC Data        OIG’s Verified WC Data
             Payment      WC          WC         WC
               Error    Amount     Frequency   Amount     WC Frequency
                                    Weekly-               Weekly-Ending
         1    $10,601     $550                   $187
                                    Ongoing                  6/13/2003
         2      4,407     $536      Weekly       $424         Weekly
         3      1,728     $932      Monthly      $606         Monthly
         4      1,629     $193      Weekly       $129         Weekly
              $18,365 Total Under-Payment Errors

In the first case, we identified a $10,601 underpayment that occurred because SSA
used a $550 weekly WC benefit amount to calculate the beneficiary’s offset. The
$550 weekly amount was the State of Kentucky’s maximum WC benefit. SSA used this
rate because it did not verify the WC benefits. We obtained the WC verification for this
case and determined the weekly WC benefit was $187, and the benefits terminated on
June 13, 2003. As a result of these differences, the claimant was underpaid
$10,601 from February 2003 through December 2004 (during our audit period). SSA
agreed the beneficiary had been underpaid and will release the total benefits due the
beneficiary through the time the adjustment was made in April 2006.

At the time of our review, SSA was still paying all four of the claims in error. The
four claims had continuing underpayment errors that ranged from $74 to $513 per
month. Had we not identified the payment errors, the beneficiaries would likely continue
to be underpaid until a significant life event occurred that would have caused SSA to
reevaluate the claims.




12
  We requested that SSA obtain the WC verification for all 19 claims. However as of September 2006,
SSA had not provided us with WC verification for two claims. Therefore, we calculated the WC offset
based on the WC benefit information SSA recorded on the MBR.
Page 9 - The Commissioner


PROCESSING MISTAKES NOT RELATED TO THE WC OFFSET
CALCULATION RESULTED IN PAYMENT ERRORS

Sixteen of the 43 payment errors resulted from processing mistakes unrelated to the
WC offset calculation. The payment errors for the 16 claims totaled $71,524. Of the
16 payment error claims, 3 continued beyond our audit period. For the three claims, the
total monthly payment error that continued into January 2005 was $1,691, or on
average about $563 per case.

SSA’s automated systems typically process monthly DI payments. However, when
SSA’s automated or direct input systems cannot completely process an action,
authorized technicians at SSA’s PSCs must manually process the action. For example,
authorized PSC employees may process actions that include initiating payment of DI
benefits, disbursing attorney fees from benefit payments, recording overpayments,
terminating benefits, and updating or correcting information on the MBR (which may
alter the monthly benefit amount).

Examples of the processing mistakes we identified follow.

•   Benefits paid to the beneficiary did not agree with the amount of benefits due.

•   The attorney fee was paid, but the fee was not offset against the benefit payment
    issued to the beneficiary.

•   The overpayment was not recognized and recorded on the MBR.

Table 4 details the payment errors caused by processing mistakes that were not related
to the WC offset calculation.
Page 10 - The Commissioner


Table 4: Processing Errors NOT Related to the WC Offset Calculation
                              Number           Payment Error Dollars
                                 of
         Error Description   Payment       Over-       Under-        Total
                               Errors   Payments     Payments        Errors
       Total Benefits Paid Did Not
   1 Agree to Total Benefits Owed       9         $4,686(1)       $13,641(8)      $18,327
       Supplemental Security
   2 Income (SSI) Windfall Offset       2             --          $29,993(2)      $29,993
       was Processed Incorrectly
       Benefits Not Adjusted for
   3   Attorney Fees
                                        2        $11,139(2)            --         $11,139
   4 Overpayment Not Recorded           1          $8,656              --          $8,656
       Initial Award (catch-up)
   5   Benefits were Underpaid
                                        1             --            $2,765         $2,765
       Benefits Not Adjusted for
   6   Receipt of Ancillary or Non-     1           $644               --           $644
       recurring payments
                         Totals         16         $25,125          $46,399         $71,524
   Note: The numbers shown in ( ) indicate the number of payment error claims comprising the
   total dollar payment error amount.

We determined SSA underpaid one beneficiary $2,722. We agreed with SSA’s WC
offset calculation. However, when we compared the total benefits paid to the total
benefits owed on the claim, we identified an underpayment error. After reviewing the
case, SSA agreed with our analysis and explained the payment error resulted from a
benefit authorizer’s mistake that was unrelated to the WC offset calculation.

Also, SSA overpaid a beneficiary $8,656 because the individual’s benefits were not
terminated when he died in February 2004. SSA continued to pay the beneficiary until
December 2004—when it determined the individual had died. However, SSA personnel
did not record an overpayment on the beneficiary’s MBR. Until we notified the Agency,
it did not attempt to recover any of the overpayment.
Page 11 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We acknowledge the improvements SSA has made in the WC offset process. Most
notably, we are encouraged by the Title II Redesign implementation, which automated
and simplified some aspects of this process. However, the payment accuracy of DI
benefits with a WC offset still depends on decisions and data SSA staff records when
processing claims. Paying correct benefit amounts to injured workers is important and
is a part of SSA’s goal of providing world-class service and ensuring stewardship of
trust fund resources. Accordingly, we remain concerned that the payment error rate is
higher than should be acceptable to the Agency. Therefore, we recommend that SSA:

1. Support legislation that would simplify and standardize the WC offset calculation.

2. Work with States to standardize the format used to report WC benefits to SSA.

3. Continue to explore electronic data exchanges with the States that maintain
   automated WC databases.

4. Determine whether assigning WC offset claims only to technicians specialized in this
   workload would be cost-effective and improve payment accuracy.

5. Increase management oversight of the WC offset calculation, including the
   verification of WC benefits.

AGENCY COMMENTS AND OIG RESPONSE
The Agency agreed with our recommendations. The full text of the Agency’s comments
is included in Appendix H.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Prior Audit Reports

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Payment Errors Caused by Workers’ Compensation Offset Processing
             Mistakes

APPENDIX F – Payment Errors Unrelated to the Workers’ Compensation Offset
             Calculation

APPENDIX G – Continuing Payment Errors

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
DI       Disability Insurance
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
PSC      Program Service Center
RIB      Retirement Insurance Benefits
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
WC       Workers’ Compensation
                                                                Appendix B

Prior Audit Reports
         Social Security Administration, Office of the Inspector General
 Reports Related to Payment Accuracy in Disability Insurance Claims Involving
                          Workers’ Compensation Offsets
  Common
                                                                       Date
Identification                        Report Title
                                                                      Issued
   Number
                Effects of State Awarded Workers’
A-04-96-61013 Compensation Payments on Social Security            September 1998
                Benefits
                The Social Security Administration Incorrectly
                Paid Attorney Fees on Disability Income Cases
A-04-98-62001                                                       March 2000
                When Workers’ Compensation Payments Were
                Involved
                The Social Security Administration’s Workers’
A-06-03-13022 Compensation Data Match with the State of             April 2003
                Texas
                Pending Workers’ Compensation: The Social
A-08-02-12064 Security Administration Can Prevent Millions in       June 2003
                Title II Disability Overpayments
                Title II Disability Insurance Benefits with
A-04-02-21054 Workers’ Compensation Underpayment Errors              July 2003
                Exceeding $70,000
                The Social Security Administration’s Clean-up of
A-04-03-13042 Title II Disability Insurance Cases with a           October 2004
                Workers’ Compensation Offset
                The Social Security Administration’s Match of
A-06-05-15024 Disability Insurance Records with Texas              August 2005
                Workers’ Compensation Payment Data
                Follow-up of Pending Workers’ Compensation:
A-08-05-25132 The Social Security Administration Can Prevent      September 2005
                Millions in Title II Disability Overpayments
                Payments Resulting from Disability Insurance
                Actions Processed via the Social Security
A-04-05-15042                                                       April 2006
                Administration’s Manual Adjustment, Credit, and
                Award Processes
                Implementation of Workers’ Compensation in
A-14-06-16049                                                       June 2006
                Title II Redesign Release 3
                                                                     Appendix C

Scope and Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims from a population
of 234,968 DI claims in which the Social Security Administration (SSA) indicated a
workers’ compensation (WC) offset began between January 1, 1998 and
December 31, 2004. Because the offset start date is updated when a change in WC
benefits is recorded, our population includes some DI claims with offset beginning
before 1998. From our sample, we determined that 93 percent of the DI claims had a
WC offset that began between January 1, 1998 and December 31, 2004, and 7 percent
of the claims had WC offsets that began before January 1, 1998.

To accomplish our audit objective, we:

•   Interviewed SSA personnel regarding procedures to process DI/WC offset claims.

•   Reviewed relevant laws and SSA’s policies and procedures.

•   Reviewed previous reports pertaining to DI claims with a WC offset.

•   Queried SSA’s Master Beneficiary Record; Payment History Update System; and
    Retirement, Survivors, and Disability Insurance Payment History and Worksheet.

For each of the 250 sampled claims, we:

•   Obtained SSA’s DI case folder and paperless file and reviewed all relevant
    documents related to the WC offset.

•   Obtained WC verification for claims that did not have updated documentation.

•   Completed SSA’s Interactive Comps Facility screen to calculate the WC offset and
    resulting DI benefits.

•   Prepared an SSA Form 2204 to compare the total benefits paid to the total benefits
    owed.

We deemed a WC case to have a reportable error when our review determined that:

•   an underpayment error was equal to or greater than 1 percent of the beneficiary’s
    total case payments or




                                           C-1
•   the overpayment was equal to or greater than 3 percent of the beneficiary’s total
    case payments.

All material error claims were forwarded to SSA for review and comment.

The SSA entities reviewed were the Offices of Income Security Programs and Disability
Programs under the Deputy Commissioner for Disability and Income Security Programs.
The electronic data used for this audit were sufficiently reliable to meet our audit
objective. Our tests of internal controls were limited to gaining an understanding of the
laws, regulations and polices that govern the processing of DI claims with a WC offset
and performing the audit steps identified above. We performed the review in Atlanta,
Georgia, and Baltimore, Maryland. We conducted our audit from May 2005 to
April 2006 in accordance with generally accepted government auditing standards.




                                           C-2
                                                                    Appendix D

Sampling Methodology and Results
Sampling Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims from a population
of 234,968 DI claims in which the Social Security Administration’s (SSA) records
indicated a workers’ compensation (WC) offset began between January 1, 1998 and
December 31, 2004. Because the offset start date is effected when a change in WC
benefits is recorded, some of our population includes DI claims with offset beginning
before 1998. From our sample, we determined that 93 percent of the DI claims had a
WC offset that began between January 1, 1998 and December 31, 2004, and 7 percent
of the claims had WC offsets that began before January 1,1998. Our dollar payment
error projection was based on the total benefits paid on the 250 sampled items during
the 6-year period January 1, 1998 through December 31, 2004. We made all
projections at the 90-percent confidence level.
Sampling Results
Estimation of Payment Errors—DI Claims With a WC Offset Calculation Error
(January 1, 1998 through December 31, 2004)
                          Projections of Attribute Appraisals:
                     DI Claims With a WC Offset Calculation Error
                             Attribute Appraisal Projections
 Population and Sample Data                                      Number of Claims
 Total Population                                                            234,968
 Sample Size                                                                    250
 Payment Errors Resulting in an Underpayment                                     19
 Payment Errors Resulting in an Overpayment                                       8
 Projection to Population – Underpayments                        Number of Claims
 Lower Limit                                                                  11,830
 Point Estimate                                                               17,858
 Upper Limit                                                                  25,731
 Projection to Population – Overpayments                         Number of Claims
 Lower Limit                                                                   3,765
 Point Estimate                                                                7,519
 Upper Limit                                                                  13,390




                                               D-1
                            Projections of Variable Appraisals:
                      DI Claims With a WC Offset Calculation Error
                              Variable Appraisal Projections
Population and Sample Data                                     Dollar Value of Claims
Sample                                                                      $9,351,517
Total DI claims Involving a WC offset with a Payment Error                    $158,590
Payment Errors Resulting in an Underpayment                                   $118,386
Payment Errors Resulting in an Overpayment                                     $40,204
Projection to Population – Underpayments                       Dollar Value of Claims
Lower Limit                                                                $49,644,626
Point Estimate                                                            $111,268,016
Upper Limit                                                               $172,891,405
Projection to Population – Overpayments                        Dollar Value of Claims
Lower Limit                                                                $12,397,025
Point Estimate                                                             $37,786,614
Upper Limit                                                                $63,176,203




                                                D-2
DI Claims With Payment Errors Unrelated to the WC Offset Calculation
(January 1, 1998 through December 31, 2004)

      DI Claims With Payment Errors Unrelated to the WC Offset Calculation
                              Attribute Appraisal Projections
 Population and Sample Data                                         Number of Claims
 Total Population                                                                  234,968
 Sample Size                                                                           250
 Payment Errors                                                                        16
 Projection to Population                                           Number of Claims
 Lower Limit                                                                         9,530
 Point Estimate                                                                     15,038
 Upper Limit                                                                        22,456
                              Variable Appraisal Projections
 Population and Sample Data                                       Dollar Value of Claims
 Sample                                                                         $9,351,517
 Total DI Claims With Payment Errors Unrelated to the WC Offset                    $71,524

 Projection to Population                                         Dollar Value of Claims
 Lower Limit                                                                   $26,295,266
 Point Estimate                                                                $67,223,696
 Upper Limit                                                                  $108,152,127




                                               D-3
Estimation of DI Claims Involving a WC Offset that Had Continuing Payment
Errors during the Period January through December 2005

We determined that 18 claims had payment errors that continued after
December 31, 2004. We believe the payment errors would have likely continued had
we not identified them, or a significant event occurred that would have caused SSA to
review the claims. Therefore, we conservatively estimated that the payment errors
would have continued, on average, for at least 12 months after our audit period. Our
estimate was based on two factors:

1. the attribute point estimate of claims with a payment error that continued after
   December 31, 2004 and

2. the total case dollar payment error that continued through January 2005.

                           Projections of Attribute Appraisals:
         DI Claims Involving a WC Offset With Continuing Payment Errors
                              Attribute Appraisal Projections
 Population and Sample Data                                         Number of Claims
 Total Population                                                                234,968
 Sample Size                                                                          250
 Claims With a Continuing Payment Error                                               18
 Projection to Population                                           Number of Claims
 Lower Limit                                                                      11,057
 Point Estimate                                                                   16,918
 Upper Limit                                                                      24,645


       1-Year Estimate — DI Claims Involving a WC Offset With Continuing
                                Payment Errors
 Sample Results                                                 Dollar Value of Claims
 Total Continuing Payment Errors for January 2005                                 $7,372
 Projection to Population                                       Dollar Value of Claims
 Lower Limit                                                                   $3,408,914
 Point Estimate                                                                $6,928,736
 Upper Limit                                                                  $10,448,559
 Estimated Payment Error for the 12-Month Period January
                                                                              $83,144,832
 through December 2005 (Based on Point Estimate)




                                               D-4
                                                                           Appendix E

Payment Errors Caused by Workers’ Compensation Offset
Processing Mistakes
                                                                 Under-       Over-
                     Error Description                          Payment      Payment
                                                                Amount       Amount
1.    Applied Incorrect Workers Compensation (WC) Data           $28,971        --
2.    Reverse Offset Error                                       $12,838        --
3.    Applied Incorrect WC Data                                  $12,377        --
4.    Inappropriately Offset Auxiliaries                         $12,360        --
5.    WC Offset Based on Unverified WC Benefits                  $10,601        --
6.    Applied Incorrect WC Data                                    --         $8,527
7.    Applied Incorrect WC Data                                  $8,402         --
8.    Applied Incorrect WC Data                                    --         $8,257
9.    Applied Incorrect WC Data                                    --         $7,937
10.   Applied Incorrect WC Data                                    --         $6,890
11.   Lump Sum Proration Error                                   $6,595         --
12.   WC Attorney Fees were Incorrectly Applied                  $6,079         --
13.   WC Offset Based on Unverified WC Benefits                  $4,407         --
14.   Beneficiary Elected Early Retirement Insurance Benefits    $3,546         --
15.   Beneficiary Elected Early Retirement Insurance Benefits      --         $3,475
16.   Applied Incorrect WC Data                                  $3,343         --
17.   Applied Incorrect WC Data                                    --         $2,501
18.   WC Offset Based on Unverified WC Benefits                  $1,728         --
19.   WC Offset Stopped too Early                                  --         $1,689
20.   Lump Sum Proration Error                                   $1,666         --
21    WC Offset Based on Unverified WC Benefits                  $1,629         --
22.   Applied Incorrect WC Data                                  $1,283         --
23.   Applied Incorrect WC Data                                    --          $928
24.   Applied Incorrect WC Data                                   $907          --
25.   Applied Incorrect WC Data                                   $729          --
26.   Triennial Not Performed                                     $517          --
27.   Triennial Not Performed                                     $408          --
                                     TOTALS                     $118,386      $40,204
                 TOTAL UNDER & OVERPAYMENTS                            $158,590
                                                                             Appendix F

Payment Errors Unrelated to the Workers’ Compensation
Offset Calculation
                                                                  Under-         Over-
                        Error Description                        Payment        Payment
                                                                 Amount         Amount
        Supplemental Security Income Windfall Offset
   1.                                                            $20,810               --
        Processed Incorrectly
        Supplemental Security Income Windfall Offset
   2.                                                             $9,183               --
        Processed Incorrectly
   3.   Failure to Post Overpayment                                 --               $8,656
   4.   Attorney Fee Error                                          --               $5,839
   5.   Attorney Fee Error                                          --               $5,300
   6.   Total Benefits Paid were More than Total Benefits Due       --               $4,686
   7.   Total Benefits Paid were Less than Total Benefits Due     $2,790               --
   8.   Incorrect Initial Award                                   $2,765               --
   9.   Total Benefits Paid were Less than Total Benefits Due     $2,722               --
  10.   Total Benefits Paid were Less than Total Benefits Due     $2,497               --
  11.   Total Benefits Paid were Less than Total Benefits Due     $1,941               --
  12.   Total Benefits Paid were Less than Total Benefits Due     $1,686               --
  13.   Total Benefits Paid were Less than Total Benefits Due     $1,039               --
  14.   Benefits Not Adjusted for Non-Routine Payments              --               $644
  15.   Total Benefits Paid were Less than Total Benefits Due     $584                 --
  16.   Total Benefits Paid were Less than Total Benefits Due     $382                 --

                                                         Total   $46,399         $25,125
                   TOTAL UNDER & OVERPAYMENTS                              $71,524
                                                                   Appendix G

Continuing Payment Errors
Eighteen of our 43 (41 percent) payment error claims had a payment error that occurred
during our audit period and continued after December 2004. We believe the payment
errors would have likely continued had we not identified them, or a significant event
occurred that would have caused SSA to review the claims. The claims with continuing
payment errors are summarized below.

             Payment Errors Continuing After December 2004
                                            Number of          Total Dollar
               Error Description            Continuing        Payment Error
                                          Payment Errors     For January 2005
      1 Incorrect Workers’
        Compensation (WC) Data
                                                 6                 $1,728
        (amount and frequency)
        Applied
      2 No Verification                          4                 $1,233
      3 Total Benefits Paid Did Not
                                                 3                 $1,691
        Agree to Total Benefits Paid
      4 Triennial Redetermination Not
                                                 2                  $660
        Performed
      5 Beneficiary Not Switched to
                                                 1                 $1,447
        Retirement Benefits
      6 WC Offset Incorrectly Applied
                                                 1                  $330
        to Auxiliary Beneficiaries
      7 WC Offset Stopped Early                  1                  $283
                              TOTALS             18                $7,372
                  Appendix H

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      November 6, 2006                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Title II Disability Insurance Benefits with a
           Workers' Compensation Offset" (A-04-05-15133) – INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                          H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "TITLE II DISABILITY INSURANCE BENEFITS WITH A WORKERS'
COMPENSATION OFFSET" (A-04-05-15133) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report.

The workers’ compensation (WC) workload, although a very small workload compared to other
SSA workloads, has always been complex and challenging. Over the past several years, SSA
has made great strides in improving the accuracy of the computations. Much of the improvement
is a result of Title 2 redesign enhancements that automated and simplified some aspects of this
process. The payment accuracy of DI benefits with a WC offset is impacted greatly by the
quality and timeliness of the data supplied by the States. Although we presume this data to be
accurate, we frequently find ourselves re-verifying cases and getting different information that
results in underpayments and/or overpayments. This, in conjunction with human error, when
transmitting information into the system, contributes to a number of errors related to this
workload. We continue to remind employees on the WC processes and have recently started
gathering data that will be used to provide refresher training to the technicians.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

Support legislation that would simplify and standardize the WC offset calculation.

Response:

We agree. A standardized calculation would make it easier for the Agency to train technicians to
do this work accurately, without having to teach different calculations to selected groups.
Further, management's ability to reassign work/resources as needed would be greatly enhanced
due to the decreased need for the specialized abilities of the technicians. Accordingly, we
strongly support legislation that would simplify and standardize WC offset calculations. There is
currently a proposal in the President’s Fiscal Year 2007 Budget that would simplify WC offset
for all new beneficiaries by imposing offset at a flat percentage of benefits for a limited 5-year
period.

Recommendation 2

Work with States to standardize the format used to report WC benefits to SSA.

Response:

We agree. Standardizing the reporting of WC benefits information would simplify processing.
However, it would be difficult to facilitate a national format that all States would follow for
obvious reasons, not the least of which would be the financial investment required from the
States to update and maintain the information.




                                               H-2
Recommendation 3

Continue to explore electronic data exchanges with the States that maintain automated WC
databases.

Response:

We agree. Such exchanges would allow for an expeditious transfer of data to the Agency. Time
spent by technicians trying to obtain accurate WC information would be reduced along with the
processing time of these cases. In addition, the level of accuracy in processing these cases would
improve due to the availability of the most recent WC data.

Recommendation 4

Determine whether assigning WC offset claims only to technicians specialized in this workload
would be cost-effective and improve payment accuracy.

Response:

We agree in part. The Agency has already looked at the ramifications of specialization of the
WC offset workloads. At the current staffing levels and given the amount of other priority
workloads and service levels to maintain, it would be difficult to dedicate a specialized group of
technicians for this workload. However, we would be willing to reevaluate the issue in the
future as part of our ongoing efforts to improve our stewardship of the program.

Many WC offset actions, both for initial disability claims and in post-entitlement situations, are
processed in our field offices and, with current resource constraints, specialization would not be
cost-effective. Assigning all WC offset actions to a specific claims representative or technical
expert would be difficult in field offices due to staffing and other workload concerns. However,
we will continue to monitor field office inputs to determine specific training needs.

On the other hand, in our processing centers, specialization has already occurred in targeted
reviews of WC offset cases. Along with that specialization, technicians are provided continuous
refresher training and feedback to ensure a continued improvement in payment accuracy.

Recommendation 5

Increase management oversight of the WC offset calculation, including the verification of WC
benefits.




                                                H-3
Response:

We agree. In addition to the increase of technical reviews of WC offset cases, as noted in our
comments to recommendation 4, we have established a website that allows for continual
monitoring by management the ongoing payment accuracy of these cases.

In addition, several of our processing centers worked together to create a national project to
conduct weekly random quality reviews of current cases involving WC/Public Disability Benefit
offset. These processing centers have developed an application that will standardize the way
they evaluate the quality of this workload and identify error-prone case characteristics. We will
use this information to determine training needs for technical staff and reduce the number
of deficiencies in this critical workload.




                                               H-4
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director (205) 801-1605

   Frank Nagy, Audit Manager (404) 562-5552

Acknowledgments

In addition to those named above:

   Valerie Ledbetter, Auditor

   Shane Henley, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-05-15133.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
